HHS/OIG, Audit - "Review of Nebraskas Foster Care IV-E Training Costs for the Period October 1, 1994 through September 30, 1999," (A-07-02-00138)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nebraskas Foster Care IV-E Training Costs for the Period
October 1, 1994 through September 30, 1999," (A-07-02-00138)
February 24, 2003
Complete Text of Report is available in PDF format
(928 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Nebraska charged unallowable costs to the
title IV-E Foster Care program totaling approximately $11.7 million (federal
share) for the 5-year period ending September 30, 1999. The unallowable costs
consisted of ; salaries and related overhead costs of staff who were not in
training, unsupported costs, program costs allocated in error, overhead costs
claimed at an unallowable enhanced FFP rate, and costs not allocated to all
benefitting programs. We recommended a financial adjustment for $11.7 million,
and that Nebraska obtain an agreement with the HHS Division of Cost Allocation
for allocating future training costs.